OFFICE OF THE ATTORNEY GENERAL
Capital Collateral

LISA-MARIE LERNER
Assistant Attorney General
ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

1515 North Flagler Drive, Suite 900
West Palm Beach, FL 33401
Phone (561) 837-5203 Fax (561) 837-5108
LisaMarie.Lerner@myfloridalegal.com

February 15, 2021
The Honorable Scott S. Harris, Clerk
Office of the Clerk
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
Re: Leroy Pooler v. State of Florida
Case No.: 20-7228
Request for Extension of Time/Capital Case
Dear Sir:
On February 22, 2021 Petitioner, Leroy Pooler, filed his petition for writ of certiorari; the
brief in opposition is currently due March 29, 2021. The undersigned counsel has several
other petitions of certiorari currently pending in this court for which she needs to complete
briefs in opposition, has just finished a response to a motion for reconsideration in a federal
habeas petition, as well as various state court appearances and work, all on a capital cases,
during the time allotted for this brief in opposition. Consequently, the State is requesting
an extension of time to file its brief in opposition pursuant to Supreme Court Rules 15 and
30, a sixteen (16) day extension, up to and including April 14, 2021.
No previous extensions have been requested. Counsel anticipates that the additional
sixteen days (16) will be sufficient time to prepare and to file the State’s Brief in Opposition
in this case.
Thank you for your consideration of this request.
Sincerely yours,
Ashley Moody
Attorney General
/S/ Lisa-Marie Lerner
Lisa-Marie Lerner
Assistant Attorney General
Copy sent to: Todd Scher at tscher@msn.com.

